                  Payroll Conversion

                       EXECUTIVE SUMMARY

We found that the Office of Administrative and Personnel Management (OAPM)
effectively coordinated the Commission’s conversion to the Department of the Interior’s
payroll system. Users generally felt that OAPM payroll staff were doing a good job,
given resource constraints, and were responsive to their needs.

Commission employees, particularly supervisors and managers, have had some
difficulties in learning to use the new system. In some cases, access controls have been
compromised, as discussed below. We are making several recommendations to
enhance access controls and customer service, including issuing guidance, providing
training, and establishing a help desk and web page.

OAPM provided written comments (attached) on a draft of this report. Generally, OAPM
concurred with our recommendations.

                              BACKGROUND

The Commission’s prior payroll system, known as the Pay, Time, and Leave (PTL)
system, was not year 2000 compliant, and imposed a substantial administrative burden
on the Office of Information Technology. Consequently, the Commission converted to
the Department of Interior’s (DOI) Federal Personnel/Payroll System (FPPS) on June
20, 1999. Responsibility for payroll was transferred from the Office of the Comptroller
(OC) to the Office of Administrative and Personnel Management.
Commission computers connect to the DOI system in Washington, D.C. FPPS
headquarters are in Denver, Colorado. Firewalls protect both systems from
unauthorized access, and the system maintains a log of any unauthorized access
attempts.
The FFPS is used by several other agencies, including the Department of Education, the
Federal Labor Relations Authority, the Federal Trade Commission, the Pension Benefit
Guaranty Corporation, and the Social Security Administration. DOI currently charges
$160 a year for each W-2 form processed (i.e., payroll/personnel services for one
employee), which costs the Commission about $522,000 annually.
FPPS is a mainframe-based, real-time personnel and payroll system. It incorporates all
current Office of Personnel Management regulations. All personnel and time and
attendance (T&A) transactions are processed and maintained in electronic form. Unlike
the PTL system, which required managers to sign a paper document, requests for
personnel actions and time and attendance entries are signed electronically.
                                                                                                                                                      Page 2


FPPS controls transaction processing functionally. Each user has access only to a
specific range of data (e.g., organization codes, action types, etc.), and specific
commands needed to complete a transaction. System access is protected by
passwords, and by users’ access profiles.
For time and attendance, timekeepers enter hours worked and leave taken for each
employee into the system. Then, they forward the data to the certifying official
(generally, a manager or supervisor) for that official’s review and certification. The data
are then released to DOI for processing.
For personnel action requests, administrative contacts or clerical staff initiate an
electronic form (analogous to paper form SF-52). Authorizing officials (managers or
supervisors) review the requests, electronically sign them, and forward them to the
Comptroller’s Office for its review and concurrence. The Comptroller’s Office then
transmits the request to OAPM for final processing.

                                 OBJECTIVES AND SCOPE

Our objective was to determine whether the conversion to DOI’s system was effective,
and whether Commission payroll controls were properly implemented (we did not assess
controls administered by DOI). During the audit, we interviewed DOI and Commission
staff, surveyed users by questionnaire, reviewed relevant documentation, and tested
selected controls, including access controls. We conducted the audit between
December 1999 and July 2000 in accordance with generally accepted government
auditing procedures.

                                                  AUDIT RESULTS

We found that overall, the conversion to the DOI system was effective, and commend
OAPM for its efforts. OAPM and OC coordinated a working group consisting of
themselves and the Office of Information Technology (OIT). This group met with DOI
and dealt with issues associated with the transition, which took over six months. To stay
current on system developments, OAPM now participates in an FPPS users group with
other agencies.
OAPM took several actions to acclimate users to the FPPS, although these actions have
not yet been fully effective, as explained below. It provided training to users (although
some users did not attend, especially managers) and a timekeeper’s manual, which
users say is helpful. It created a mailbox for users, and sent out numerous e-mails
concerning the system. To reduce the administrative burden on timekeepers, it
authorized not entering credit hours into the system (since credit hours do not affect
leave balances, and a hard copy record of them is maintained). Most users who
participated in our survey indicated that the payroll staff are responsive to their needs.
We found that access controls were not being properly implemented in some cases,
because of some managers’ reluctance to use the system, or unfamiliarity with it. The
access controls help ensure the integrity of system data by limiting approval of
transactions to authorized users (management). As explained below, we are
recommending certain steps to enhance security and improve customer service.

       ______________________________________________________________________________________________________________________________________________________________
____

Payroll Conversion (Audit 314)                                                                                               September 22, 2000
                                                                                                                                                      Page 3




AUTHORIZING PERSONNEL ACTIONS
The DOI system allows personnel actions to be initiated and signed on-line, including
hiring and terminating employees, job or grade changes, and placement in a pay or non-
pay status. The DOI system limits access to the system and separates duties to help
prevent inadvertent errors or deliberate falsification of documents.
An initiator (generally, a clerical or administrative employee) enters the data concerning
the action into FPPS. An approving official (the office head or other management official
designated by the office head) reviews and signs the action. The electronic signature
replaces the manual signature on the prior paper form, the SF-52. The fact that the
signature is electronic should not make a substantive difference; i.e., if only managers
are authorized to sign a paper SF-52, then only managers should be authorized to sign
an electronic equivalent.
Our testing identified six offices or divisions which had not properly implemented the
above controls. These offices or divisions allowed a program support specialist (or
assistant, in one case) between grade levels 8 and 13 to sign personnel actions, rather
than managers. In addition, five of the six allowed the same program support specialist
to both initiate and sign personnel actions. Of the 504 personnel actions the
Commission processed under FPPS, 25% (127) were entered and approved by one
program support specialist.
To ensure that FPPS processes only properly authorized personnel actions, OAPM
needs to provide guidance to offices and divisions, and follow-up to ensure that the
guidance has been implemented.

       Recommendation A
       OAPM should issue guidance to office heads and divisions on the proper
       authorization of personnel actions as discussed above. It should confirm that all
       offices and divisions have properly authorized access to the DOI personnel
       system.


SEPARATING FPPS USERS
We reviewed a listing of authorized FPPS users. Fifty persons on the listing (out of a
total of 825 users) were former employees who should not have access to the system.

       Recommendation B
       OAPM should develop procedures to ensure that separating employees are
       promptly deleted from FPPS access (e.g., by periodically comparing a listing of
       separating employees to an FPPS user listing).




       ______________________________________________________________________________________________________________________________________________________________
____

Payroll Conversion (Audit 314)                                                                                               September 22, 2000
                                                                                                                                                      Page 4



SHARING OF PASSWORDS
Two administrative contacts told us that they use their supervisor’s password to perform
functions not assigned to them, such as certifying T&A entries (including their own) and
approving personnel actions. The supervisors, who were senior managers, apparently
wished to avoid administrative inconvenience. However, by sharing passwords, the
supervisors have circumvented FPPS controls.
OAPM stated that it has taken corrective action in these two cases. However, the
administrative staff involved stated that they believe sharing of FPPS passwords is a
common practice.

       Recommendation C
       OIT in consultation with OAPM should remind all FPPS users that sharing
       passwords is not allowed, and a serious violation of good security practices.
       OAPM should describe to senior management how FPPS’s administrative
       burden can be minimized while maintaining its controls (e.g., an office head can
       delegate approval and certifying functions to another manager in that office,
       rather than the office head or administrative staff exercising these functions).


TRAINING OF USERS
Only 194 Commission employees out of 894 users attended training in FPPS, according
to OAPM’s records. Only three office heads attended the training. The lack of training
may account for some of the difficulties users are having with the system.
DOI also offers computer-based training. This training leads the new user through FPPS
functions. Some training in the FPPS system (whether classroom or computer-based)
should be required before users receive their access codes.

       Recommendation D
       OAPM should ensure that all users have appropriate classroom or computer-
       based training. It should consider providing office heads with a brief overview of
       FPPS and their responsibilities. OAPM should coordinate with the Office of
       Information Technology on security awareness training.


VIEWING LEAVE BALANCES
Each pay period, OAPM sends a memorandum to timekeepers on T&A errors. Many
errors relate to insufficient leave balances, which could have been prevented if
timekeepers knew the balances.
Timekeepers generally told us that they did not know how to obtain leave balances from
FPPS. Some indicated that they still keep manual records, which wastes time. Under
the FPPS tracking and utilities functions, timekeepers are authorized to view and print a
report of leave balances.




       ______________________________________________________________________________________________________________________________________________________________
____

Payroll Conversion (Audit 314)                                                                                               September 22, 2000
                                                                                                                                                      Page 5


       Recommendation E
       OAPM should tell timekeepers how to view leave balances and to print a leave
       balance report.


IMPROVING CUSTOMER SERVICE
To help evaluate the effectiveness of the payroll office, we asked users to rate it on a
scale of one to five (1= Unsatisfactory, 2= Fair, 3= Good, 4= Very Good, and 5=
Excellent). Of the 56 users who rated the office, 38 (68%) rated the office as good or
better, with an average rating of 3.3
We also asked users to suggest improvements to the office. They suggested that the
payroll office have staff available to answer the phone (rather than rely on voice mail);
shorten the response time for questions; and check the FPPS mailbox more often.
OAPM stated that the office had been short-staffed and unable to respond to users as
quickly as desired. This problem has now been corrected. OAPM plans to set up a help
desk for users and establish a performance goal of responding to users within 72 hours.

       Recommendation F
       OAPM should implement its plans to improve customer service.


WEB PAGE
The DOI web page provides user manuals, personnel codes, and general information
about FPPS. Most respondents to our questionnaire said that they were unaware of the
site. This information could help users avoid some processing problems.
OAPM has issued several e-mails and other guidance on the FPPS. This material could
be made readily available to users through a payroll site on the Intranet, linked to the
DOI site.

       Recommendation G
       OAPM should set up an FPPS web site on the Intranet that links to DOI ‘s web
       site.




       ______________________________________________________________________________________________________________________________________________________________
____

Payroll Conversion (Audit 314)                                                                                               September 22, 2000
